             Office of Inspector General




September 27, 2006

MICHAEL J. NAPPI, JR.
MANAGING DIRECTOR, INTERNATIONAL NETWORK OPERATIONS

SUBJECT:          Audit Report – Capping Report on the Efficiency of the International
                  Records Units Operations (Report Number NO-AR-06-008)

This report presents a summary of our work on International Records Units (IRUs)1
located in New York, New York; Los Angeles, California; San Francisco, California;
and Chicago, Illinois, International Service Centers (Project Number 05YG045NO000).
This report also identifies network-level inefficiencies that impact the overall IRU
environment. Our objectives were to summarize issues associated with IRU operations
and identify opportunities to improve operations. This is our fifth and final report in this
area of IRUs.

                                                  Background
When the Postal Service established the International Service Center (ISC) network
in 1996, it absorbed the operations of the IRUs, which were part of the international
exchange offices2 before the creation of the ISC network. International Network
Operations has functional responsibility for IRUs nationwide. IRUs have approximately
90 dedicated full-time employees located in Honolulu, Hawaii; Seattle, Washington;
Los Angeles, California; Oakland, California; San Francisco, California; Chicago, Illinois;
Dallas, Texas; New York, New York; Jersey City, New Jersey; Miami, Florida; and
San Juan, Puerto Rico.

The IRU function is an important part of Postal Service operations. IRUs handle
international mail records for international exchange offices, and make adjustments on
payments and billings for international transportation providers. The information




1
 IRUs were formerly referred to as Airmail Records Units.
2
 An international exchange office is a post office, airport mail center, or facility authorized to exchange international
mail and military mail, both air and surface, with another country.
Capping Report on the Efficiency of the                                                               NO-AR-06-008
 International Records Units Operations


generated by these actions can be used to identify, correct, and help manage the
transportation budget and settle payments of terminal dues.3

These units also communicate with foreign postal administrations on mailing matters
through Verification Notes (VNs)4 and reconcile and maintain international mail records.
IRUs input inbound letter class and Parcel Post® mail volumes into a web-based
application and adjust volumes based on the VNs received. The International
Accounting Branch in St. Louis, Missouri, uses these volumes to bill foreign postal
administrations and to support international revenue and receivables.

The following is an example of a typical paper transaction at an IRU:

    •    A parcel addressed to Bamako, Maili from the U.S. is mistakenly sent to South
         Africa.

    •    The South Africa Post Office forwards the parcel to the correct destination, where
         the clerk documents this action on a VN and mails the VN to the applicable U.S.
         Postal Service IRU.

    •    The U.S. Postal Service IRU clerk receives the VN from the South Africa Post
         Office indicating that the parcel addressed for Bamako, Maili was mistakenly sent
         to them.

    •    The IRU clerk then adjusts the record to pay the South Africa Post Office for
         forwarding the mail, documents this action on the VN, and mails the VN back to
         the South Africa Post Office for their records.

                            Objectives, Scope, and Methodology

Our objectives were to summarize issues associated with IRU operations and identify
opportunities to improve operations.

We conducted four individual audits at the New York, Los Angeles, San Francisco,
and Chicago IRUs5 during calendar years 2004 and 2005. Individual reports were
issued for each site. Postal Service district managers at each of the units generally
agreed with our findings and are taking corrective actions on our recommendations.
(See Appendix A for prior audit coverage and a summary of cost avoidance.) We also
identified issues found at all four sites, which we believe to be systemic.


3
  Terminal dues: When foreign posts dispatch mail to the U.S., they pay the Postal Service a portion of the costs to
sort, transport, and deliver that mail to its final U.S. address.
4
  Postal administrations use VNs, formerly known as Bulletins of Verification, to communicate irregularities in the
preparation, dispatch, and receipt of international mail.
5
  The ISCs at these four locations handled approximately 88 percent of the international mail processed by the Postal
Service in fiscal year (FY) 2005.



                                                          2
Capping Report on the Efficiency of the                                                                NO-AR-06-008
 International Records Units Operations


To assess the efficiency of the individual IRUs, we observed operations at the units;
analyzed volumes of records processed and associated workhours; and evaluated
employee efficiency. We contacted all IRUs to verify that they were processing the
same types of hard copy records and employing the same manual methods as the
individual IRUs reviewed. We also reviewed applicable Postal Service handbooks
and regulations, including Handbook F-59, International Exchange Office Procedures,
June 1992; Standard Operating Procedures, January 1995; and Handbook T-5,
International Mail Operations, May 2006.

We interviewed management from the International Accounting Branch, International
Network Operations, International Postal Affairs, Integrated Business Systems Solutions
Center, International Business Operations, and Network Operations Development
concerning the systemic issues identified during individual audits.

We reviewed Universal Postal Union (UPU)6 standards to gain an understanding of the
international mailing community and methods of communications. We reviewed the
data systems used in IRUs, the proposed International Systems Migration project,7 and
the Document Portal. We also analyzed various IRU operational functions and
procedures.

We conducted these audits from September 2005 through September 2006 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. We
discussed our observations and conclusions with management officials and included
their comments where appropriate.

                                         Prior Audit Coverage

The U.S. Postal Service Office of Inspector General (OIG) has issued four audit reports
related to our objective. These reports identified opportunities to improve the efficiency
of individual IRUs. (See Appendix A for prior audit coverage and a summary of cost
avoidance.)

                                                    Results

Network-Level Inefficiencies

IRUs across the country operated in an antiquated, inefficient, and manual work
environment.8 Based on our audits, we estimated there were at least 2 million hard

6
  The UPU is a specialized institution of the United Nations that regulates the universal postal service. UPU sets the
rules for international mail, which are then voted on by member countries. It has 190 member countries, of which the
U.S. Postal Service is a member.
7
  The International Systems Migration project will move current international systems into existing domestic systems
and create systems to support international functions when there is no domestic counterpart.
8
  The IRUs continue to collect and use paper records to handle international mail matters as they did in the 1950s.



                                                          3
Capping Report on the Efficiency of the                                                              NO-AR-06-008
 International Records Units Operations


copy paper records stored at the four IRUs we reviewed. We found the work functions
performed at IRUs were mostly manual and paper-based, as illustrated in the table
below.

                                            IRU Work Functions

                                                    Method:                             Source of Data:
          Procedure                            Automated/Manual                         Paper/Electronic
1. Count/Sort                                       Manual                                   Paper
2. Input Data                                      Automated                                 Paper
3. Research/Retrieval                                 Both                                    Both
4. Communication                                    Manual                                   Paper
5. Filing                                           Manual                                   Paper
6. Weekly Reporting                                 Manual                                   Paper

For example, our review found that IRU employees manually count, sort, and file
international records.9 They perform data entry on letter and parcel bills, communicate
with foreign postal administrations via paper VNs, and research discrepancies on
multiple Postal Service data systems. (See Appendix B for a list of Postal Service data
systems used by IRUs.) Unit productivity was recorded manually by the individual units
and reported to headquarters. The following photographs show examples of IRUs’
manual and paper-based work environment.


                                    San Francisco IRU Workstation




9
 IRUs maintain inbound Express Mail® manifests, letter and parcel bills, and outbound VNs for letters, parcels, and
Express Mail.



                                                         4
Capping Report on the Efficiency of the                                       NO-AR-06-008
 International Records Units Operations


                            Chicago IRU Hard-Copy Filing System




                                    Chicago IRU Workstation




Inefficiencies at Individual IRUs

We found that each of the four IRUs processed fewer records than targeted productivity
rates; misaligned workhours with workload; and performed extra work by processing
VNs for missent mail. The Postal Service addressed the recommendations we made in
individual reports and took actions to improve the efficiency of the individual IRUs. (See
Appendix A for more details of these projects.)

According to the Strategic Transformation Plan, 2006 - 2010, the Postal Service plans
to standardize and improve processes in support areas to provide greater quality
performance. This will include optimizing information technology to allow for future
system integrations, dedicating teams to identify major process improvements, and
evaluating opportunities for centralizing services or outsourcing activities that can be
performed more efficiently and at a lower cost by others.

The IRU operational inefficiencies occurred for several reasons. Mainly, IRU operations
had not received adequate management attention and funding. For example, we found
that IRUs did not:




                                               5
Capping Report on the Efficiency of the                                                                 NO-AR-06-008
 International Records Units Operations



         •   Employ a full-time IRU coordinator.
         •   Conduct periodic evaluations of operations.
         •   Update policies, processes, and procedures.
         •   Use electronically transmitted data with all participating countries.
         •   Develop an integrated data system to streamline and automate the manual
             work processes.
         •   Centralize operations.

We believe the IRUs have not received adequate attention because the units are not a
core Postal Service function. The Postal Service’s efforts to improve efficiencies by
using electronic data have also been hampered because the UPU does not require the
use of electronic data. Additionally, some countries do not want to invest in or use the
same technology while other countries want hard copy records. However, 23 countries
(which process approximately 77 percent of the world’s mail) already electronically
exchange dispatch information.10 IRUs could take advantage of the opportunity to
significantly reduce paperwork with these participating countries.

Despite these barriers, the Postal Service has taken initiatives that will benefit
international mail operations, thereby improving the efficiency of the IRUs. For
example:

     •   The Postal Service submitted a resolution at the 2004 UPU Congress for a
         comprehensive review of UPU operational and accounting procedures to
         transition from paper-based documentation to paperless. In addition to working
         through the UPU, the Postal Service has entered into bilateral agreements with
         some foreign postal administrations to go paperless.

     •   In January 2006, Information Technology and International Network Operations
         implemented the Document Portal, a web-based document retrieval application.
         Foreign postal administrations will now be able to electronically retrieve
         documents instead of requesting the documents from the IRUs via the VN
         process.

     •   In FY 2005, Network Operations Management began an International Systems
         Migration project. One component of this project is the International
         Reconciliation System (IRS) that is being developed for the IRUs. The IRS will
         interface with other Postal Service systems and receive electronic information
         from foreign postal administrations and transportation providers. The IRS will
         replace some functions currently performed by IRUs and provide an integrated
         data system. However, funding for the integration of international systems has
         been cut for FY 2007.

10
   Dispatch information includes origin, destination, number, and weight of items as well as other information specific
to the mailing.



                                                           6
Capping Report on the Efficiency of the                                        NO-AR-06-008
 International Records Units Operations



While these initiatives should have a positive impact on the efficiency of the IRUs,
overall operations continue to be inefficient. As a result, IRUs have incurred more
workhours than necessary to accomplish their mission.

Recommendations

We recommend the Managing Director, International Network Operations:

    1. Detail an International Records Unit coordinator (for a period not to exceed
       2 years) to oversee and evaluate International Records Unit operations.

    2. Examine and reengineer International Records Unit work processes, use
       electronically transmitted data with participating countries, and update policies
       and procedures accordingly.

    3. Fund and complete the International Systems Migration project.

    4. Evaluate opportunities for consolidating and outsourcing the International
       Records Units.

Management’s Comments

Management generally agreed with our recommendations. Management agreed to
detail an IRU coordinator contingent on organizational approval and funding. Further,
management agreed to pursue recommendations 2 and 4, if the IRU coordinator
position was established. Finally, management stated they support the International
Systems Migration project and while funding is not currently available, they plan to
continue supporting the automation efforts. Management's comments, in their entirety,
are included in Appendix C.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendations. While funding for
the IRU coordinator is not currently available, we believe this is critical to the
modernization of the IRU operations. Consequently, management should continue to
actively pursue establishing this position. We consider the actions taken or planned
sufficient to address the issues we identified in the report.




                                             7
Capping Report on the Efficiency of the                                   NO-AR-06-008
 International Records Units Operations



Throughout these audits of IRUs, we appreciated the cooperation of all levels of
Postal Service management. If you have any questions or need additional information,
please contact Robert J. Batta, Director, Network Operations - Processing, or me at
(703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Anthony M. Pajunas
    Kenneth W. McFadden
    Frank M. Panico
    Cynthia F. Mallonee
    Steven R. Phelps




                                          8
    Capping Report on the Efficiency of the                                    NO-AR-06-008
     International Records Units Operations



                                              APPENDIX A

       PRIOR AUDIT COVERAGE AND SUMMARY OF COST AVOIDANCE

    Efficiency of the Airmail Records Unit at the New York International Service Center
    (Report Number NO-AR-04-011, dated September 24, 2004). We recommended the
    Postal Service reduce workhours by 30,000 to improve the efficiency of operations, and
    consider possible outsourcing. The Postal Service agreed with our recommendations.

    Efficiency of the Airmail Records Unit at the Los Angeles International Service Center
    (Report Number NO-AR-05-010, dated April 28, 2005); Efficiency of the Airmail Records
    Unit at the San Francisco International Service Center (Report Number NO-AR-05-012,
    dated September 6, 2005); and Efficiency of the Chicago Airmail Records Unit at the
    J.T. Weeker International Service Center (Report Number NO-AR-06-002, dated
    December 22, 2005). In these three reports, we recommended the Postal Service
    reduce workhours as shown in the following table to improve efficiency, periodically
    evaluate operations, and train plant operations personnel in proper mail sorting. The
    Postal Service agreed with our recommendations.

                                   Summary of Cost Avoidance

                                                                        Projected 10-Year Cost
                                                                           Avoidance from
   Report           Date                                  Workhour     Recommended Workhour
  Number           Issued              Location          Reductions          Reductions
NO-AR-04-011      9/24/04         New York, NY, ISC           30,000                 $9,248,967
NO-AR-05-010      4/28/05        Los Angeles, CA, ISC          5,450                  1,847,858
NO-AR-05-012      9/06/05       San Francisco, CA, ISC         7,757                  2,563,277
NO-AR-06-002      12/22/05           Chicago, IL,              3,860                  1,121,794
                                   J.T. Weeker ISC
   Totals                                                     47,067                $14,781,896




                                                  9
Capping Report on the Efficiency of the                                       NO-AR-06-008
 International Records Units Operations




                                          APPENDIX B

                     SYSTEMS AND APPLICATIONS USED BY
                       INTERNATIONAL RECORDS UNITS

IRUs used the following systems and applications to perform their duties:
The International Accounting Branch Settlement Management System – Web
application used for Letter Class, Express Mail and Parcel Post for international
accounts settlements.
Customer Information Control System – System used for outbound Parcel Post
adjustments. This system manually feeds into the Settlement Management System.
Military and International Dispatch and Accountability System (MIDAS) – A mail
dispatching and mail receiving system that propagates and collects all the necessary
information to make adequate settlements with foreign postal administrations and with
air carriers for carrying Postal Service mail. In addition, it provides foreign postal
administrations with the documentation necessary to make payments to the Postal
Service. MIDAS prepares and collects this information through various technologies
directly in plant operations where the mail is processed to leave the country or where
mail is accepted from a foreign country.
Surface Air Support System – International pay online application used for payments
and adjustments of international transportation providers.




                                              10
Capping Report on the Efficiency of the                NO-AR-06-008
 International Records Units Operations


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                          11
